No. 20-

 

 

IN THE

Supreme Court of the Anited States

HOUSTON COMMUNITY COLLEGE SYSTEM,

Petitioner,
v.
DAVID BUREN WILSON,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,522 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2020.

 

Wilson-Epes Printing Co., Inc.
